MEMORANDUM FOR:               SAMUEL T. MOK
                              Chief Financial Officer



FROM:                         ELLIOT P. LEWIS
                              Assistant Inspector General for Audit

SUBJECT:                      The e-Payroll Quicksilver Project: “Go/No-Go” Decision,
                              Concerns Regarding Parallel Testing, Training and
                              Resolution Status of Prior Recommendations
                              Period Ending August 12, 2004
                              Audit Report No. 23-04-015-13-001

DATE:                         August 18, 2004

The attached report is submitted in final for your action. This report does not incorporate
the Office of Chief Financial Officer’s (OCFO) response to the draft report briefing. Due
to the time sensitive nature of the information in this report, we had requested your
response by the end of the day Wednesday, August 17. We did not receive your response
until today (August 18), which was too late to include in this report. However, we noted
nothing in your response that would change the conclusions or recommendations in this
report. We will provide specific feedback on your response under separate cover.

Due to the significance of the issues presented and the need for timely closure, we request
a response to this report by September 3, 2004.

Based on the information provided to the OIG in the OCFO’s response to the Notice of
Findings on August 5, 2004, and discussions held at the briefing of the draft report on
August 12, 2004, we made minor changes to the original briefing to provide clarification
and emphasis where appropriate. In addition, we relied on information gathered from
June 23, 2004 to August 12, 2004, to finalize our conclusions regarding new and prior
recommendations:

New Recommendations:

Recommendation 1: Do not reach a “GO” Decision until parallel testing assures the
production environment data remains identical to the test environment data (ATST), and
that data clean-up is complete and leads to 100% of DOL employees being paid
accurately and timely.

        •   As part of the “Go / No Go” Decision making process, validate all steps in the
            acceptance/parallel test plan have been completed including NFC’s tasks.
       •   Maintain the PeoplePower system, as the system of record, for payroll and HR
           purposes until full migration and conversion to NFC is complete.

       OIG Conclusion: This recommendation is unresolved.

Recommendation 2: The CFO, who is responsible for the system “Go/No Go” decision:

       •   Shall incorporate input from key stakeholders such as the Secretary of Labor,
           MRB, TRB, AOs, CIO, OIG and NFC in the decision process.

           o Shall request input from the stakeholders after the CFO briefs the
             acceptance test results to each stakeholder

       OIG Conclusion: This recommendation is unresolved.

Recommendation 3: Document and identify the following benchmarks/metrics in the
finalized Parallel Test Plan:

       •   Level of input from key stakeholders
       •   Criteria for the “Go/No Go” decision, including the acceptable level of
           tolerance for:

           o Key payroll attributes (e.g., gross pay, net pay, leave, taxes, allotments,
             etc.)
           o Degree of manual/human intervention to accomplish payments
           o Errors (e.g., programming/mapping/data conversion errors)
           o Training completeness

       OIG Conclusion: This recommendation is unresolved.

Recommendation 4: Ensure that HR and Payroll employees’ training continues in order
for all key users to adequately perform their job function and allows for complete
understanding of the system’s features and processes.

       OIG Conclusion: This recommendation is unresolved.




                                            2
Status of Prior Recommendations from the OIG Interim Report 1 Issued March 22, 2004

       Recommendation 1: Obtain written confirmation from NFC that the conversion
       can be completed by September 30, 2004. Insist on reviewing NFC project plans
       and maintain periodic discussions with NFC management to confirm continuously
       that NFC is on schedule to meet DOL’s deadline.

       OIG Conclusion: This recommendation was closed in prior report.

Recommendation 2: Develop a conversion plan that indicates the process and
milestones that ensures all payroll and retirement data cleanup will be completed and
how the conversion of the data to NFC will be accomplished.

       OCFO Response: The project plan provided from the OCFO was the final plan.
       That plan was updated and provided to the OIG when requested.

       OIG Conclusion: Based upon the project plans provided from the OCFO, this
       recommendation is closed.

Recommendations 3 and 4: Brief the TRB on the status of the e payroll project on a
regularly scheduled basis to gain added insight and advice from knowledgeable and
experienced department-wide IT managers. Commit to having the OCIO and TRB
involved in the e payroll project and take advantage of the OCIO’s authority to leverage
DOL’s IT resources to ensure project success.

       OCFO Response: The OCFO combined these recommendations in their initial
       response. The OCFO has stated that they have had more substantive involvement
       with the OCIO than just a mere briefing of the TRB, and listed those areas of
       substantive involvement.

       OIG Conclusion: Based upon the response provided from the OCFO and
       meetings with the OCIO, these recommendations are resolved. To close these
       recommendations, OCFO should brief the acceptance test results to the
       TRB/OCIO and incorporate their input in the “Go/No-Go” decision process.

Recommendation 5: Commit to developing an updated project migration budget
indicating expected costs of migration.

       OCFO Response: The OCFO provided summary and detailed project budgets.
       These budgets include DOL contractor costs, NFC development costs, training
       and related travel, and other costs. The Department did not establish an operating
       unit for this project; nor did it allocate new staff positions. Therefore there are no
       staff costs separate from the regular OCFO operating plan. The OCFO’s project




                                             3
       budget contents are not out of the compliance with the Department’s System Life
       Cycle Methodology.

       OIG Conclusion: This recommendation remains unresolved. Based on the
       OCFO’s e-Payroll Budget spreadsheet dated July 16, 2004, provided to the OIG,
       more relevant costs are being captured than previously identified by the OCFO.
       However, to manage a project of this importance and scope, the OCFO needs to
       provide OIG a more detailed project budget and tracking of costs.

Recommendation 6: If these actions cannot be taken within a reasonable amount of
time, the DOL should reevaluate its ability to achieve the September 30, 2004 deadline.

       OCFO Response: The OCFO believes it has achieved many of the actions
       recommended by the OIG and welcomes the OIG’s involvement in the project.

       OIG Conclusion: This recommendation is unresolved. To resolve and close this
       recommendation, the OCFO needs to continually review the project status, project
       plans and testing results for purposes of making a reliable “Go / No Go” decision.

Status of Prior Recommendations from the OIG Interim Report 2 Issued June 23, 2004

Recommendation 1: Ensure that the project plan adequately reflects the project’s
progress (i.e., completing blank fields, assigning resource names to tasks, and updating
task completion percentages) and develop a plan structure that compares baseline project
information to actual project information.

       OCFO Response: The project plan is used by DOL primarily as a management
       tool. OCFO believes the project schedule does reflect the true status of the
       project. On July 16, the OCFO provided OIG three status reports used to inform
       the Project Manager of the status of specific tasks and their impact on the project.
       These reports portray that the Project Manager is aware of updates to task changes
       and completion dates. The self-assessment reports were color coded green prior
       to the change of a task, yellow during the change, and green after the change. The
       OCFO also updated resource names and completion percentages for DOL tasks
       on the project plan.

       OIG Conclusion: Based upon the information provided, this recommendation is
       resolved. To close this recommendation, the project plan must include updated
       NFC task information, such as resource names and completion percentages.
       Furthermore, base-lined versus actual project task dates need to be provided or
       identified.




                                            4
Recommendation 2: Develop a methodology for approving changes to the Project Plan
including appropriate documentation of the approval process, including documentation of
the date of the requested change, the date of the approval, the implementation of the
change, a quality insurance sign off and a risk analysis of the change.

       OCFO Response: OCFO’s change control methodology has been to discuss
       minor changes to the plan in daily and weekly status meetings and highlight them
       in green on each release of the project plan. The OCFO has developed a method
       for major changes to the project plan. On July 16, the OCFO provided OIG three
       status reports used to inform the Deputy CFO of the status of specific tasks and
       the impact it has on the project.

       OIG Conclusion: Based on the information provided by the OCFO to OIG, this
       recommendation is closed.



Attachment

cc:    Greg James
       Patrick Pizzella
       Barbara Burkhalter




                                           5
                                    U.S. Department of Labor




United States Department of Labor
      Office of Inspector General
   The e-Payroll Quicksilver Project:
“Go/No Go” Decision, Concerns Regarding Parallel
              Testing, Training, and
   Resolution Status of Prior Recommendations
           Period Ending August 12, 2004
                               Audit Report No. 23-04-015-13-001
                                                                 U.S. Department of Labor




The e-Payroll Quicksilver Project: Resolution Status of Prior
Recommendations and Concerns Regarding Parallel Testing,
Training, and “Go/No Go” Decision

  This audit was performed by Urbach Kahn & Werlin Advisors, LLP, under contract to the
  Office of Inspector General, and, by acceptance, it becomes a report of the Office of
  Inspector General. The audit was conducted in adherence to the Government Auditing
  Standards published by the Government Accountability Office.




                                              2
                                                                                    U.S. Department of Labor

Executive Summary
1.   There may not be an adequate, finalized, and approved process in place to support the Department’s
     “Go/No Go” decision to meet the migration target date of September 30, 2004.
                Unclear definition of the metrics and benchmarks for making the “Go/No Go” decision.

                The OCFO has not documented the criteria for a “Go/No Go” decision in its finalized Parallel Test Plan.

                It is unclear to the OIG what specific key stakeholders will be included in the decision process and how
                 their input will be solicited.

2.   Factors that have hindered or are still impeding the progress of parallel testing for users:
                Integration/System Testing was conducted in conjunction with Parallel/Acceptance Testing, which is not a
                 typical SDLC phased approach.
                Programming/Mapping errors outside of user’s control.
                Approximately 193 different types of errors remain to be corrected.
             •        About 5,217 individual errors remain outstanding that are comprised of the 193 different error types.
                Approximately 400 employee records as of 8/12/04 have yet to be applied to the NFC system.
                Incorrect data has been an obstacle for users throughout parallel testing due to the inability to complete
                 data clean-up.

3.   An inconsistency exists as to whether user training was effective enough to ensure users are sufficiently
     familiar with the system’s features and functions to operate it effectively and efficiently.
                Head e-Payroll project team evaluation survey results indicated that of the respondents:
             •        85% reported all topics were adequately covered.

                OIG training evaluation survey results of users from various headquarter agencies indicated:
             •         Although feedback related to the trainer’s delivery of course materials was positive, 10 out 10 users
                       believe that the lecture format was ineffective.


                                                              3
                                                                                U.S. Department of Labor

Executive Summary continued…
To ensure effective management of the project, including meeting the current
deadline of September 30, 2004, we recommend immediate action on the following:
  •   Recommendation 1: Do not reach a “Go” Decision until parallel testing assures the production environment data
      remains identical to the test environment data (ATST), and that data clean-up is complete and leads to 100% of DOL
      employees being paid accurately and timely.
         As part of the “Go/No-Go” decision making process, validate all steps in the Acceptance/Parallel Test Plan
           have been completed including NFC’s tasks.
         Maintain the PeoplePower system, as the system of record, for payroll and HR purposes until full migration
           and conversion to NFC is complete.

  •   Recommendation 2: The CFO, who is responsible for the system “Go/No Go” decision:
        Incorporate input from key stakeholders such as the Secretary of Labor, MRB, TRB, AOs, CIO, OIG, and NFC
          in the decision process.
            • Request input from the stakeholders after the CFO briefs the acceptance test results to each stakeholder.

  •   Recommendation 3: Document and identify the following benchmarks/metrics in the finalized Parallel Test Plan:
        Level of input from key stakeholders
        Criteria for the “Go/No Go” decision, including the acceptable level of tolerance for:
           • Key payroll attributes (e.g., gross pay, net pay, leave, taxes, allotments, etc.)
           • Degree of manual/human intervention to accomplish payments
           • Errors (e.g., programming/mapping/data conversion errors)
           • Training completeness

  •   Recommendation 4: Ensure that HR and Payroll employees’ training continues in order for all key users to
      adequately perform their job function and allows for complete understanding of the system’s features and processes.



                                                           4
                                                                          U.S. Department of Labor


Executive Summary continued…
Resolution Status of Prior Recommendations from
the OIG Interim Report 1 Issued March 31, 2004:
-   Recommendation 1: Obtain written confirmation from NFC that the conversion
    can be completed by September 30, 2004, for DOL. Insist on reviewing NFC
    project plans and maintain periodic discussions with NFC management to confirm
    continuously that NFC is on schedule to meet DOL’s deadline.
                 Status: Closed

-   Recommendation 2: Develop a detailed conversion plan that indicates the
    process and milestones that ensures all payroll and data validation will be
    completed and how the conversion of the data to NFC will be accomplished.
                Status: Closed

-   Recommendations 3 and 4: Brief the TRB on the status of the e-payroll project
    on a regularly scheduled basis to gain added insight and advice from
    knowledgeable and experienced department-wide IT managers. Commit to having
    the OCIO and TRB involved in the e-payroll project and take advantage of the
    OCIO’s authority to leverage DOL’s IT resources to ensure project success.
                Status: Resolved

    To close this recommendation, OCFO shall brief the acceptance test results to the TRB/OCIO and incorporate
    their input in the “Go/No-Go” decision process.



                                                     5
                                                                               U.S. Department of Labor


Executive Summary continued…
Resolution Status of Prior Recommendations from the OIG
Interim Report 1 Issued March 31, 2004:

    -   Recommendation 5: Commit to developing an updated project migration
        budget indicating expected costs of migration.

                        Status: Unresolved
        Itemized listing of project costs and expenses need to be provided to OIG.


    -   Recommendation 6: If these actions cannot be taken within a reasonable
        amount of time, the DOL should reevaluate its ability to achieve the
        September 30, 2004 deadline.

                        Status: Unresolved
        To resolve the OCFO needs to continually review the project status, project plans and testing results for
        purposes of making reliable “G0/No Go” decisions.




                                                        6
                                                                              U.S. Department of Labor


Executive Summary continued…
Resolution Status of Prior Recommendations from the OIG
Interim Report 2 Issued June 23, 2004:
    –   Recommendation 1: Ensure that the project plan adequately reflects the project’s progress
        (i.e., completing blank fields, assigning resource names to tasks, and updating task
        completion percentages) and develop a plan structure that compares base-lined project
        information to actual project information.
                       Status: Resolved

          On July 16, the OCFO provided OIG 3 status reports used to inform the Project Manager of the status of
          specific tasks and their impact on the project. These reports portray that the Project Manager is aware of
          updates to task changes and completion dates. The self-assessment reports were color coded green prior
          to the change of a task, yellow during the change, and green after the change. The OCFO also updated
          resource names and completion percentages for DOL tasks on the project plan.

          To close this recommendation, the project plan must include updated NFC task information, such as
          resource names and completion percentages. Furthermore, base-lined versus actual project task dates
          need to be provided or identified.

    –   Recommendation 2: Develop a methodology in accordance with best practices for
        approving changes to the Project Plan including appropriate documentation of the approval
        process, such as the date of the requested change, the person requesting the change, the
        approval of the change, the date of the approval, the implementation of the change, a quality
        assurance sign-off, and a risk analysis of the change.

                       Status: Closed



                                                       7
                                     U.S. Department of Labor




Audit Objective


To determine whether the conversion and migration
effort of the Department of Labor’s Payroll functions
are being effectively managed to ensure the project will
meet the target date of September 30, 2004; as directed
by the President’s Management Agenda Quicksilver
Project, “e-Payroll: Payroll Processing Consolidation”




                           8
                                                                        U.S. Department of Labor




Audit Scope
For this interim report, we audited the project management activities of the Office of the Chief
Financial Officer (OCFO) located in Washington, DC, and related supporting documentation that is
being used to achieve a September 30, 2004, implementation date for a conversion and migration to
the e-Payroll system including:

     1.     the completeness of documentation required by DOL’s SDLCM;
     2.     project management compliance with activities specified within the DOL SDLCM or another OCIO
            approved System Development Life Cycle (SDLC) methodology;
     3.     project management involvement of DOL Business Sector decision making authorities; and
     4.     responsibilities and progress of any third party agencies involved with the conversion/migration.

This report is not based on an assessment of all management controls that could be considered as
the audit progresses.

Compliance/noncompliance of any of the above will be reported using interim reports as well as an
overall report at the conclusion of the audit. This interim report is based on our work from June 19,
2004 to August 12, 2004.

The audit period for this engagement is January 1, 2004 – September 30, 2004.




                                                   9
                                                            U.S. Department of Labor



Audit Methodology
We have:

       Assessed the activities and documentation developed for each SDLC phase

       Assessed project management activities during the course of system development
        and implementation

       Reviewed conversion and migration documentation developed during the decision-
        making process

       Conducted interviews with key DOL personnel including members of the OCFO, OIG,
        BLS, OASAM and AO groups

       Participated in NFC instructed training

       Obtained and analyzed OCFO Fit-Gap reports

       Reviewed OCFO provided testing/training documentation




                                              10
                                                                U.S. Department of Labor



Audit Methodology continued…
We have:

       Reviewed IV&V project plan, cost benefit analyses, test reviews, and status reports

       Performed preliminary interviews and assessments of contracted parties hired to
        provide resolution

       Attended OMB meetings

       Attended bi-weekly AO Committee meetings

       Adhered to the Government Auditing Standards issued by the Comptroller General of
        the United States




                                              11
                                                        U.S. Department of Labor




Reporting

This report is the third interim report of a series of interim reports
numbered:

       Report 1: Audit Report No. 23-04-010-13-001
        “The e-Payroll Quicksilver Project: Status and Concerns Period Ending
         March 22, 2004”

       Report 2: Audit Report No. 23-04-012-13-001
        “The e-Payroll Quicksilver Project: Resolution Status of Prior
         Recommendations and Project Plan Not Effectively Communicating
         Progress Period Ending June 23, 2004”




                                       12
                                                                                U.S. Department of Labor


New Issues:
1. There may not be an adequate, finalized, and approved process in
   place to support the Department’s “Go/No Go” decision to meet the
   migration target date of September 30, 2004.

•   Unclear definition of what will constitute approval by DOL to make the “Go/No-Go” decision
        It is unclear to the OIG what specific key stakeholders will be included in the decision process (e.g., Secretary,
         OCFO, CIO, AO (in representation of the user community), IV&V team, TRB, MRB, NFC, OIG etc).
        It is unclear what process will be used to brief the Acceptance Test Results to the stakeholders and how their
         input will be solicited.

•   OCFO has provided OIG with informal “Go/No Go” decision process criteria. OIG finds that the
    criteria is lacking specific benchmarks and metrics for consideration in making the “Go/No
    Go” decision, such as:
        The acceptable level of error tolerance
        Input from key stakeholders
        Confirmation that system errors have been corrected at the completion of the parallel test
        Confirmation of training completeness, and user preparedness and satisfaction
        Confirmation that policy, procedures, and program issues have been resolved

•   The OCFO has removed the “Go/No Go” decision criteria from the Parallel Test Plan.
        The migration effort proceeded without predetermined test result criteria. Performance and acceptance
         tolerances were not documented prior to the commencement of parallel testing.




                                                         13
                                                                      U.S. Department of Labor




    Possible negative results if not addressed
•    Without specified criteria regarding the critical elements necessary for acceptance by the
     key stakeholders involved in the “go-live” decision:

         Decision makers may make an uninformed and/or inaccurate decision

         May lead to implementing a system that is not fully ready for production

         May lead to varying levels of processing errors and delays affecting DOL employees

         May result in the implementation of a system that does not meet user needs, leading to user
          dissatisfaction




                                                  14
                                                                                                 U.S. Department of Labor

New Issues continued:
2.   Factors that have hindered or are still impeding the progress of parallel testing
     for users:
•    Integration/System Testing was conducted in conjunction with Parallel/Acceptance Testing, which is not a
     typical SDLC phased approach.
         As part of Integration Testing, not all integrated program components or modules were validated to determine proper functionality
          prior to the start of Parallel Testing.
         As part of System Testing, not all system functions were validated to determine whether it meets technical and interface
          requirements (e.g., Employee Express) prior to Parallel Testing.

    Approximately 193 different types of errors remain to be corrected.
         About 5,217 individual errors remain outstanding that are comprised of the 193 different error types

•    Approximately 400 employee records as of 8/12/04 have yet to be applied to the NFC system, and NFC
     has yet to inform DOL the maximum number of employees that can be paid by their “alternative payment
     process” in the case that not all employee records are applied to the master file. Employee records not
     applied to the NFC system are due to:
         Unresolved mapping/system issues
         Conversion errors regarding data incompatibility between the NFC system and PeopleSoft

•    Incorrect data has been an obstacle for users throughout parallel testing due to the inability to complete
     data clean-up (e.g., Job Codes, Tenures, Taxes).




                                                                     15
                                                                  U.S. Department of Labor




Possible negative results if not addressed
These key issues if not abated could result in:

       Untimely and inaccurate payroll processing
       Time-consuming, inefficient manual work
       Unidentified system security vulnerabilities (e.g., user permissions)




                                              16
                                                                                    U.S. Department of Labor

    New Issues continued:
    3. An inconsistency exists as to whether user training was effective
          enough to ensure users are sufficiently familiar with the system’s
          features and functions to operate it effectively and efficiently.
•    e-Payroll project team evaluation survey results indicated that of the respondents:
          89% rated the training as good to excellent
          85% reported all topics were adequately covered
          87% reported the length of training was adequate to excellent
          87% reported the training was well sequenced

•    OIG training evaluation survey results of 12 users from various headquarter agencies
     indicated:
          Limited Length of Training
             - Users expressed concern that the allowance of time provided for training may not allow for the testing
                 of all scenarios that may be encountered after the system is implemented

          Inadequate Training
              - Although feedback related to the trainer’s delivery of course materials was positive, 10 out of 10 users
                believe that the lecture format was ineffective
              - Hands-on training was not provided prior to the commencement of parallel testing
              - Only users receiving suspense errors experienced hands on training with the system
                    • Training levels varied based on the number and various types of suspense errors encountered

      •    Training Results
             - After the completion of training, 10 out of 12 users interviewed are highly concerned about DOL
                 employees getting paid during the first pay period due to the fact that they are concerned about
                 performing their job functions effectively. The remaining two users believe that employees will get paid,
                 but remain concerned about the accuracy of the payment.


                                                             17
                                                                   U.S. Department of Labor




    Possible negative results if not addressed
•    The difference in CFO and OIG training results may indicate users are now experiencing
     difficulties with functions and processes that did not arise during formal classroom
     training. The inability of users to use the new system effectively or fully could impact the
     processing of DOL personnel pay and other payroll management functions under the e-
     Payroll system, resulting in:

             Unreliable Human Resources (HR) Information
             Inaccurate and/or Nonpayment
             Delayed Processing and/or Pay




                                                18
                                                                              U.S. Department of Labor

Recommendations
To ensure effective management of the project, including meeting the current
deadline of September 30, 2004, we recommend immediate action on the following:
  •   Recommendation 1: Do not reach a “Go” Decision until parallel testing assures the production environment data
      remains identical to the test environment data (ATST), and that data clean-up is complete and leads to 100% of DOL
      employees being paid accurately and timely.
         As part of the “Go/No-Go” decision making process, validate all steps in the Acceptance/Parallel Test Plan
           have been completed including NFC’s tasks.
         Maintain the PeoplePower system, as the system of record, for payroll and HR purposes until full migration
           and conversion to NFC is complete.

  •   Recommendation 2: The CFO, who is responsible for the system “Go/No Go” decision:
        Incorporate input from key stakeholders such as the Secretary of Labor, MRB, TRB, AOs, CIO, OIG, and NFC
          in the decision process.
            • Request input from the stakeholders after the CFO briefs the acceptance test results to each stakeholder.

  •   Recommendation 3: Document and identify the following benchmarks/metrics in the finalized Parallel Test Plan:
        Level of input from key stakeholders
        Criteria for the “Go/No Go” decision, including the acceptable level of tolerance for:
           • Key payroll attributes (e.g., gross pay, net pay, leave, taxes, allotments, etc.)
           • Degree of manual/human intervention to accomplish payments
           • Errors (e.g., programming/mapping/data conversion errors)
           • Training completeness

  •   Recommendation 4: Ensure that HR and Payroll employees’ training continues in order for all key users to
      adequately perform their job functions and allows for complete understanding of the system’s features and
      processes.

                                                        19
                                                     U.S. Department of Labor




Status of Prior Recommendations from the OIG
Interim Report 1 Issued March 31, 2004
  Recommendation 1: Obtain written confirmation from NFC that the conversion can
  be completed by September 30, 2004, for DOL. Insist on reviewing NFC project
  plans and maintain periodic discussions with NFC management to confirm
  continuously that NFC is on schedule to meet DOL’s deadline.

            Status: Closed



  Recommendation 2: Develop a detailed conversion plan that indicates the
  process and milestones that ensures all payroll and data validation will be
  completed and how the conversion of the data to NFC will be accomplished.

            Status: Closed




                                     20
                                                                       U.S. Department of Labor




Status of Prior Recommendations from the OIG
Interim Report 1 Issued March 31, 2004 continued…

     Recommendations 3 and 4: Brief the TRB on the status of the e-payroll project
     on a regularly scheduled basis to gain added insight and advice from
     knowledgeable and experienced department-wide IT managers. Commit to
     having the OCIO and TRB involved in the e-Payroll project and take advantage
     of the OCIO’s authority to leverage DOL’s IT resources to ensure project
     success.
                    Status: Resolved

     To close this recommendation, OCFO shall brief the acceptance test results to the TRB/OCIO and
     incorporate their input in the “Go/No-Go” decision process.




                                                 21
                                                                         U.S. Department of Labor




Status of Prior Recommendations from the OIG
Interim Report 1 Issued March 31, 2004 continued…

     Recommendation 5: Commit to developing an updated project migration
     budget indicating expected costs of migration.

                     Status: Unresolved

     Itemized listing of project costs and expenses need to be provided to OIG



     Recommendation 6: If these actions cannot be taken within a reasonable
     amount of time, the DOL should reevaluate its ability to achieve the
     September 30, 2004 deadline.

                     Status: Unresolved

     The OIG will continue to monitor OCFO’s compliance with DOL’s SDLCM manual throughout the
     duration of the project.




                                                   22
                                                                       U.S. Department of Labor



Status of Prior Recommendations from the OIG
Interim Report 2 Issued June 23, 2004
   Recommendation 1: Ensure that the project plan adequately reflects the project’s progress
   (i.e., completing blank fields, assigning resource names to tasks, and updating task
   completion percentages) and develop a plan structure that compares base-lined project
   information to actual project information.

                  Status: Resolved

    On July 16, the OCFO provided OIG 3 status reports used to inform the Project Manager of the status of
    specific tasks and their impact on the project. These reports portray that the Project Manager is aware of
    updates to task changes and completion dates. The self-assessment reports were color coded green prior
    to the change of a task, yellow during the change, and green after the change. The OCFO also updated
    resource names and completion percentages for DOL tasks on the project plan.

    To close this recommendation, the project plan must include updated NFC task information, such as
    resource names and completion percentages. Furthermore, base-lined versus actual project task dates
    need to be provided or identified.

   Recommendation 2: Develop a methodology in accordance with best practices for
   approving changes to the Project Plan including appropriate documentation of the approval
   process, such as the date of the requested change, the person requesting the change, the
   approval of the change, the date of the approval, the implementation of the change, a quality
   assurance sign-off, and a risk analysis of the change.

                  Status: Closed



                                                 23
